<html>
<title> - [H.A.S.C. No. 113-36]THE READINESS POSTURE OF THE U.S. AIR FORCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-36]

                         THE READINESS POSTURE
                         OF THE U.S. AIR FORCE

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 24, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                      U.S. GOVERNMENT PRINTING OFFICE

  80-765                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  




                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             JOE COURTNEY, Connecticut
AUSTIN SCOTT, Georgia                DAVID LOEBSACK, Iowa
KRISTI L. NOEM, South Dakota         COLLEEN W. HANABUSA, Hawaii
J. RANDY FORBES, Virginia            JACKIE SPEIER, California
FRANK A. LoBIONDO, New Jersey        RON BARBER, Arizona
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
DOUG LAMBORN, Colorado               WILLIAM L. ENYART, Illinois
E. SCOTT RIGELL, Virginia            PETE P. GALLEGO, Texas
STEVEN M. PALAZZO, Mississippi
                        Michelle Pearce, Counsel
               Vickie Plunkett, Professional Staff Member
                         Nicholas Rodman, Clerk










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, April 24, 2013, The Readiness Posture of the U.S. Air 
  Force..........................................................     1

Appendix:

Wednesday, April 24, 2013........................................    25
                              ----------                              

                       WEDNESDAY, APRIL 24, 2013

              THE READINESS POSTURE OF THE U.S. AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Clarke, Lt Gen Stanley E., III, USAF, Director, Air National 
  Guard, U.S. Air Force..........................................     6
Fedder, Lt Gen Judith A., USAF, Deputy Chief of Staff for 
  Logistics, Installations and Mission Support A4/7, U.S. Air 
  Force..........................................................     5
Field, Lt Gen Burton M., USAF, Deputy Chief of Staff for 
  Operations, Plans and Requirements A3/5, U.S. Air Force........     4
Haddad, Maj Gen Richard S., USAF, Deputy to the Chief of Air 
  Force Reserve, U.S. Air Force..................................     7
Moeller, Lt Gen Michael R., USAF, Deputy Chief of Staff for 
  Strategic Plans and Programs A8, U.S. Air Force................     3

                                APPENDIX

Prepared Statements:

    Moeller, Lt Gen Michael R., joint with Lt Gen Burton M. 
      Field, Lt Gen Judith A. Fedder, Lt Gen Stanley E. Clarke, 
      and Maj Gen Richard S. Haddad..............................    30
    Wittman, Hon. Robert J.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Enyart...................................................    59

Questions Submitted by Members Post Hearing:

    Mr. LoBiondo.................................................    63
    Mr. Loebsack.................................................    64
    Ms. Shea-Porter..............................................    66
 
              THE READINESS POSTURE OF THE U.S. AIR FORCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Wednesday, April 24, 2013.
    The subcommittee met, pursuant to call, at 11:31 a.m., in 
room 2212, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. Ladies and gentlemen, I will call to order the 
House Committee on Armed Services and the Subcommittee on 
Readiness to order. I thank you all so much for joining us 
today and want to welcome you to our hearing on the readiness 
posture of the United States Air Force. And I would like to 
extend a warm welcome to our witnesses today.
    We have with us Lieutenant General Michael Moeller, Deputy 
Chief of Staff for Strategic Plans and Programs; Lieutenant 
General Burton Field, Deputy Chief of Staff for Operations, 
Plans and Requirements; Lieutenant General Judith Fedder, 
Deputy Chief of Staff for Logistics, Installations and Mission 
Support; Lieutenant General Stanley Clarke, Director of the Air 
National Guard; and Major General Richard Haddad, Deputy to the 
Chief of the Air Force Reserve.
    Thank you for being here with us today. And one 
administrative note before we get started. I would like to ask 
that you please keep your opening comments to 3 minutes in the 
interest of time. We have a number of members here, and we want 
to make sure that we get your comments. I want you to know that 
your written comments will be entered as part of the record, so 
whatever you want to make sure you get to us will be part of 
the record, but we ask that you truncate your opening remarks 
here to 3 minutes so we can get everybody in and we have 
opportunity for members of the panel to ask questions.
    Generals, in your statement, you noted that allowing the 
Air Force to slip to a lower state of readiness requiring a 
long buildup to regain full combat effectiveness negates the 
essential strategic advantages of air power and puts joint 
forces at risk. There is no better example of such an 
unacceptable risk than on the Korean peninsula, where the Air 
Force, Navy, Marine Corps, and the Army work hand in hand to 
secure our interests.
    I was alarmed when General Odierno testified before the 
Senate Armed Services Committee yesterday that we are heading 
toward a hollow force and that budget cuts could threaten Army 
readiness levels on the Korean peninsula. In your statement, 
you indicated that one-third of the fighter and bomber forces 
are currently standing down and that more and more pilots are 
not ready or trained and qualified to meet operational mission 
requirements, such as those in Korea, where our All-Volunteer 
Force serve as critical partners to assure peace and stability.
    The pressing concern in my mind is: What is the level of 
risk we are willing to assume with these actions? When will we 
have assumed too much risk and essentially emboldened an 
already bellicose and unpredictable leader? Have we reached 
this point already?
    I hope you will address this issue in your opening comments 
and highlight other direct mission impacts that have resulted 
because of sequestration and the budget crisis.
    With that, I would like to turn things over to my 
distinguished ranking member, Mrs. Madeleine Bordallo from the 
great U.S. territory of Guam.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 29.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. And I thank my distinguished chairman.
    I would like to welcome Generals Moeller, Field, Fedder, 
Clarke, and Haddad. Thank you for your testimony and for your 
service to our Nation, and I look forward to our dialogue this 
morning.
    This is the second in a series of hearings that will dive 
into some level of detail about the readiness issues facing 
each of the Services. Today we will explore the readiness 
challenges of the Air Force, the Air Force Reserve, and the Air 
National Guard.
    The Congress had significant concerns about last year's Air 
Force budget request and took action accordingly to address our 
concerns. So I look forward to a discussion about how the 
fiscal year 2014 budget addresses concerns raised by Congress 
and how the budget meets the goals of the 2012 DOD [Department 
of Defense] strategic guidance.
    The Air Force will continue to experience great demands on 
its forces over the coming year with the emphasis on the air 
sea battle concept to overcome current and anticipated anti-
access and area-denial threats, the continued demand for long-
range strike and the ISR [Intelligence, Surveillance, and 
Reconnaissance] platforms, as well as continued demand on 
airlift and air refueling to sustain a forward presence, all 
the while maintaining an aging fleet of aircraft, which 
requires significant maintenance and manpower to sustain and 
operate.
    I am greatly concerned about the impact of sequestration on 
Air Force readiness. The effects of sequestration have placed 
each of the military services in a difficult position, and I am 
truly concerned for the readiness of our forces. If we lose 
sight of our readiness for even a brief moment, our adversaries 
could attempt to seize on that opportunity.
    In particular, I am concerned about the grounding of 17 
combat-coded Air Force squadrons and the loss of 44,000 flying 
hours due to budget cuts. I am concerned about the amount of 
time and the funding that it will take to return these units 
back to a state of full readiness. I hope our witnesses can 
talk about the tradeoff between the short-term savings found in 
grounding these combat-coded squadrons versus the additional 
cost that it will take to reactivate these squadrons and train 
them to their requisite standards.
    In that vein, I hope our witnesses will be able to touch on 
strategic risk and the lack of strategic depth created by the 
inability to train nondeploying forces as a result of 
sequestration and general budget constraints. We understand 
that all forces deploying to Afghanistan or elsewhere will be 
truly trained and equipped, but some committee members need to 
understand the level of risk that we are embarking on with 
nondeployed forces.
    I also am concerned about the current budget situation's 
potential impact on maintenance and the Air Force depot 
operations. As we continue to utilize aging aircraft for longer 
and harder hours than they were ever designated to be flown in 
places such as Afghanistan, we will need significant funds to 
refurbish and maintain our Air Force aircraft and equipment.
    Given the immediate nature of the cuts imposed by 
sequestration, what is the short- and medium-term impact of 
sequestration to maintaining our current airlift? I hope our 
witnesses can touch on the cost growth over the next several 
years created by maintaining aircraft and support equipment at 
a lower level as a result of the significant cut in the budget 
caused by sequestration. What gaps in maintenance will we have 
as a result of some of the immediate deferrals?
    Of particular interest to me is the Global Hawk [RQ-4 
surveillance unmanned aerial vehicle] program. I remain 
concerned that the Air Force continues to plan on mothballing 
the Block 30 aircraft in fiscal year 2014. I hope our witnesses 
can speak to the analysis that has been done, if any, regarding 
the cost of maintaining the aged U-2 [``Dragon Lady'' 
reconnaissance aircraft] fleet versus maintaining the Block 30 
Global Hawks. I understand that the Block 30 aircraft could be 
enhanced with additional capabilities, but I do not feel the 
Air Force has thoroughly analyzed its options to include 
maintenance costs for the program.
    Common sense dictates that maintenance for an aged U-2 
aircraft is probably significantly more expensive than that of 
a newer, more capable aircraft. So, again, I look forward to 
the witnesses' testimony, and thank you, again, Mr. Chairman. I 
yield back.
    Mr. Wittman. Thank you, Mr. Bordallo. Thank you so much for 
your leadership.
    And at this point, we will go to our witnesses. General 
Moeller, we will begin with you.

 STATEMENT OF LT GEN MICHAEL R. MOELLER, USAF, DEPUTY CHIEF OF 
   STAFF FOR STRATEGIC PLANS AND PROGRAMS A8, U.S. AIR FORCE

    General Moeller. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, thank you for the 
opportunity to address the committee on the state of Air Force 
readiness. Despite the challenges of the dynamic fiscal 
environment, the Air Force remains committed to developing and 
implementing a program that focuses on maintaining readiness at 
levels required to support combatant commanders in their 
assigned operational missions.
    However, the fiscally constrained budget has already begun 
to increase the level of risk in our ability to provide unique 
Air Force capabilities required to meet our national security 
requirements. This new reality means we will have to make 
difficult decisions between maintaining the readiness levels 
essential to meet our global obligations today and modernizing 
a force that has been operationally committed since 1990.
    The Air Force's portion of the fiscal year 2014 President's 
budget aligns resources in an effort to slow the decline in 
readiness and maintain the investment levels required to 
sustain our highest priority modernization efforts. However, 
the near-term negative effects and uncertainty caused by the 
Budget Control Act and sequestration requires us to refocus our 
future programming efforts to reallocate resources from our 
investment accounts for the future to mitigate the immediate 
impacts to readiness.
    As important as it is to provide a ready modernized force 
to support the defense strategic guidance, it is equally 
critical to develop a cadre of highly trained personnel. To 
ensure the highest levels of personnel and weapon system 
readiness requires the Air Force to sustain a balance of 
capabilities across the total force--Active, Guard, and 
Reserve. We understand the only successful strategy to meet 
these new emerging challenges of the future is by working 
together as one team to provide the Nation with global 
vigilance, reach, and power.
    Thank you again for the continued support and the 
commitment to our Air Force. I appreciate the opportunity to be 
here with the total force team and look forward to answering 
any questions you may have.
    [The joint prepared statement of General Moeller, General 
Field, General Fedder, General Clarke, and General Haddad can 
be found in the Appendix on page 30.]
    Mr. Wittman. Thank you, Lieutenant General Moeller.
    Lieutenant General Field.

  STATEMENT OF LT GEN BURTON M. FIELD, USAF, DEPUTY CHIEF OF 
  STAFF FOR OPERATIONS, PLANS AND REQUIREMENTS A3/5, U.S. AIR 
                             FORCE

    General Field. Thank you, sir. Chairman Wittman, Ranking 
Member Bordallo, distinguished members of the subcommittee, 
thank you for allowing us to appear before you today.
    I would like to take the opportunity to reemphasize the 
troubling effect sequester will have on current and future 
readiness. For the first time in memory, Air Force combat 
forces are not flying due to a lack of funding in the middle of 
a fiscal year. While we are protecting the current fight, those 
scheduled next to deploy in baseline training at a large number 
of bases, combat training operations have come to a complete 
halt. If you have the opportunity to visit our airmen at these 
locations, you will find the silence unnerving.
    As we speak, their combat capability and effectiveness is 
eroding. By canceling weapons instructor courses, we have 
created a gap in the production of graduate-level instructors 
that will have long-term impacts on a generation of 
warfighters. These instructors are the heart, the soul, and the 
brains of our warfighting capability.
    Over the years, phenomenal training programs have been 
developed, and they sustain a United States Air Force that is 
second to none, but we have just terminated a large portion of 
those full-spectrum training operations.
    The effects of sequestration on weapon system sustainment 
and the flying hour program will not disappear on the 1st of 
October with the new fiscal year. We are developing a return to 
fly program for those affected units, but it will take time, 
additional resources, and a reduced OPSTEMPO [operations tempo] 
to fully recover. The sooner we begin flying a full training 
program, the sooner we will recover. But make no mistake: It 
will be an uphill battle.
    The greatest challenge will be to find a balance between 
minimizing the impact on readiness and preserving investment 
dollars for modernization and recapitalization of our fighter 
and bomber fleets and preferred munitions inventories, all 
while meeting the requirements in defense strategy demand 
overseas.
    This will be a delicate and a very tough balance to reach. 
I appreciate the support of the subcommittee, and I ask for 
your continued support to mitigate the effects of sequestration 
into fiscal year 2014 and beyond. The sooner we can stabilize 
training, modernization, and munitions funding, the sooner we 
can ensure we are on the track to fulfill our Nation's defense 
requirements now and in the future.
    Thank you very much, and I look forward to your questions.
    Mr. Wittman. Thank you, Lieutenant General Field.
    Lieutenant General Fedder.

  STATEMENT OF LT GEN JUDITH A. FEDDER, USAF, DEPUTY CHIEF OF 
 STAFF FOR LOGISTICS, INSTALLATIONS AND MISSION SUPPORT A4/7, 
                         U.S. AIR FORCE

    General Fedder. Chairman Wittman, Ranking Member Bordallo, 
and distinguished members of the subcommittee, thank you for 
the opportunity to testify on the current readiness of the Air 
Force.
    And while overall readiness of our Air Force is defined by 
a number of factors we will discuss today, I would like to zero 
in on the key logistics components of weapon system sustainment 
and infrastructure. Over the last two decades that the Air 
Force has been engaged in combat operations, we have stretched 
to the limit our use of many critical weapon systems, while the 
average age of these systems continues to climb. As a 
consequence, our readiness rates have declined.
    A primary objective of our fiscal year 2014 budget request 
is to address the readiness decline we are experiencing and 
target enhancements that would start to reverse this trend. 
However, sequestration now jeopardizes the gains we had hoped 
to achieve.
    Cuts to operations and maintenance funding due to 
sequestration have driven some immediate and long-term effects 
across the readiness enterprise. In our weapons system 
sustainment accounts, we are currently projecting a deferral of 
60 aircraft and 35 engines, assets that would otherwise be put 
into depots this fiscal year for overhaul, major maintenance, 
or repair, and this affects work that was scheduled for both 
our Air Force-operated depots, as well as contract suppliers, 
and most importantly, it grounds this warfighting equipment if 
it goes overdue for inspection.
    Deferring this critical maintenance and then piling on the 
consequences of a reduction in flying hours is contributing to 
a significant drop in the workload that goes into our 
industrial base, affecting small-business suppliers and the 
expertise that maintains our weapons systems.
    We also cannot discuss comprehensive readiness without 
addressing how airmen employ forces from our installations, our 
power projection platforms. The kind of mission effectiveness 
that our Nation expects and deserves depends on installations, 
runways, buildings, utilities, and other critical 
infrastructure that is integral to a ready Air Force.
    The fiscal year 2014 budget requests adequate funding for 
the principal components of our infrastructure readiness. It 
puts our $1.3 billion military construction funding request 
back to historical levels. It is supporting the Department's 
strategic priorities, as well as the Services' top weapon 
system modernization programs. It also distributes MILCON 
[Military Construction] funding equitably between the Active, 
Guard, and Reserve Components.
    However, the effects of sequestration are visible now at 
every one of our installations where we have deferred most 
infrastructure work unless it affects life, safety, health, or 
is a critical mission factor. The Air Force remains challenged 
to maintain the amount of infrastructure we have now and into 
the future.
    Mr. Chairman, Ranking Member Bordallo, and members of the 
committee, I am honored to be here today to represent airmen 
from your Air Force. Thank you for your service, your 
engagement, and, above all, your continued strong support of 
our airmen and their families, and I look forward to the 
questions.
    Mr. Wittman. Very good. Thank you, Lieutenant General 
Fedder.
    Lieutenant General Clarke.

STATEMENT OF LT GEN STANLEY E. CLARKE III, USAF, DIRECTOR, AIR 
                 NATIONAL GUARD, U.S. AIR FORCE

    General Clarke. Chairman Wittman, Ranking Member Bordallo, 
other members of the subcommittee, it is a pleasure to be here 
to represent the men and women of the Air National Guard. It is 
a real honor. Thank you.
    Twenty years ago roughly, Air National Guard deployed with 
the regular Air Force to Desert Shield. Since that time, we 
have become an integral part of the regular Air Force, along 
with the Air Force Reserve, as a total force. And most of my 
adult life has been spent in the total force world. I started 
out in the regular Air Force. I moved on to the Air Force 
Reserve briefly and then came into the Air National Guard.
    During that time, I didn't realize that senior leaders were 
actually setting goals for what the total force would be and 
what it has become. But it is a remarkable organization, and it 
has strength in fabric in how it is put together. The 
volunteers of the total military and those inside of that that 
volunteer to do operational deployments overseas can be proud 
of the mission they accomplished, and it is thanks to the total 
force leadership, who put that construct together, Congress for 
providing the readiness resources to make sure that that 
happened, have been well done.
    I just wanted to add that I think there are four parts to 
the total force. The first one is, we all accomplish and work 
under the same standards. Two, we all meet the same 
inspections. Three, operational engagement. And, four, 
resources. And it takes resources to make the other three 
happen appropriately.
    I think that the total force is better today because of 
that, and we stand ready to work anywhere, anytime, alongside 
of our regular Air Force or Reserve airmen at any time. Thank 
you for your time, and appreciate your questions later.
    Mr. Wittman. Thank you, Lieutenant General Clarke.
    Major General Haddad.

  STATEMENT OF MAJ GEN RICHARD S. HADDAD, USAF, DEPUTY TO THE 
           CHIEF OF AIR FORCE RESERVE, U.S. AIR FORCE

    General Haddad. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today.
    I am extremely honored to represent America's citizen 
airmen and the Air Force Reserve. First, I wish to highlight 
the over 70,000 Air Force reservists who provide our Nation's 
defense with operational capability, strategic depth, and surge 
capacity. Approximately 2,000 citizen airmen are currently 
deployed, and 4,000 are on Active Duty status in support of 
combatant commander requirements.
    We are still in high demand. The Air Force Reserve has 
three focus areas. First, we must never lose sight of our men 
and women in harm's way. This is why ``Remember the Fight--
Today's and Tomorrow's,'' is our top focus area.
    The Air Force Reserve must be properly organized, trained, 
and equipped for any contingency across the spectrum of 
conflict. Our ability to effectively respond with a capable and 
ready force is increasingly challenged by sequestration and 
fiscal uncertainties. Reducing our operations and maintenance 
funding directly impacts our readiness. Cuts to both flying 
hours and weapon system sustainment make it more difficult to 
be a reliable force provider. It is less costly to maintain 
combat readiness than bring back lost readiness.
    ``Adapt the Force'' is the second focus area, which refers 
to finding the right Air Force capability mix for the Reserve, 
Guard, and Active Duty. The majority of our citizen airmen 
serve part-time, bringing years of combat-tested experience at 
a cost-effective rate. We deliver a diverse portfolio of 
capability in Title 10 status as your Federal Reserve.
    The last focus area is ``Develop the Team.'' This refers to 
both developing our force and taking care of our people, which 
is more difficult as sequestration takes hold. Three-quarters 
of our full-time permanent personnel are dual-status Air 
Reserve technicians. Thus, civilian furloughs translate to a 
greater negative impact to our mission readiness. Further, cuts 
to travel dollars have reduced training and education 
opportunities and make recruiting more challenging.
    I thank the subcommittee for your continued support of 
America's citizen airmen, and I stand ready to answer your 
questions. Thank you.
    Mr. Wittman. Very good. Thank you so much, Major General 
Haddad. We thank you for your service and for your reservists 
that do such a great job for our Nation.
    And, Generals, thank you so much for your testimony and, 
again, for your service to our Nation.
    I want to begin the questioning by asking you, as a total 
panel, this question. I know that the Air Force has requested 
in its 2014 budget submission an aggressive effort for a Base 
Realignment and Closure commission. If you look at history, and 
you look at where the 2005 BRAC [Base Realignment and Closure] 
began, it began with a study in 2004. And that study said that 
there was a 24-percent excess infrastructure within the Air 
Force.
    Now, that 2004 study was based on baseline data that was 
actually formulated in 1989. So now we are talking about a 
baseline data point of almost 25 years ago. And my question is, 
is in going forward, does the Air Force have any up-to-date 
empirical evidence of what its overcapitalization might be 
today within its base structure? And, secondly, if that is the 
case, are there other contingencies that the Air Force has in 
mind if a BRAC is not pursued starting in 2014, going into 
2015? And I will open it up for any of the panel members that 
wish to answer that question.
    General Moeller. I will take the second part of the 
question, first, Mr. Chairman, if I could.
    Mr. Wittman. Okay, sure.
    General Moeller. When we look out to the future, in 
response to the evolving strategic environment--and most 
importantly, based on the fiscal constraints that we see over 
the course of the next 5 to 10 years, we know that it is going 
to require the Air Force to make tough choices.
    To help the Air Force senior leadership make those 
decisions, the Secretary of the Air Force and Chief of Staff of 
the Air Force directed that we stand up a--what we call Air 
Force 2023, which is a 10-year planning effort to look out 10 
years and then backwards, back-cast into today.
    The concept is to lay out a strategic plan that will 
identify our priorities, required critical capabilities, and 
then based on those--that overarching framework, what changes 
in posture and basing, both overseas and in CONUS [Continental 
United States], processes and organizational structures are 
required to meet the challenges of the future.
    So my answer--that was a long answer to a very simple 
question--in that we are right now engaged in a 10-year look 
that will focus, one of the efforts will focus on our force 
posture, basing and infrastructure.
    Mr. Wittman. General Fedder.
    General Fedder. Mr. Chairman, if I may add a couple 
comments, regarding your question about the study, the 2004 
study that we did for the 2005 BRAC was really the last 
comprehensive look that we did specifically for that effort. 
What we--and we haven't done anything, of course, to that 
degree since. But what we do know is, since that time, we have 
divested 500 aircraft. Our Active Duty end strength has 
decreased by 8 percent. And, of course, during BRAC 2005, we 
only closed eight installations, seven of which were minor 
installations.
    So the 2005 BRAC had relatively small impact. And so given 
those factors, we believe that there is at least about a 20-
percent existing capacity--excess capacity of infrastructure. 
And, of course, BRAC authority would allow us the opportunity 
to go in and to do that comprehensive analysis again to take 
into consideration where we are.
    And, sir, if I may echo one other thing that General 
Moeller said regarding contingencies, we have about $240 
billion in what we consider to be our--the value of Air Force 
installations and infrastructure, our plant replacement value. 
And when we look forward into that 2023 study and we look at 
what it will cost to sustain those installations in the future, 
we realize that it really becomes--it is not affordable for the 
Air Force.
    And we are looking at things that we can do now in the near 
term and that we have done over the last few years, demolish 
buildings and infrastructure we don't need, consolidate some of 
those functions, and we will continue to do that across our Air 
Force to maximize the resources that we have.
    Mr. Wittman. Very good. I would urge you, as you go 
forward, to develop as much empirically based evidence as you 
can, rather than anecdotal. And I understand that there is, you 
know, an assumption to say that as our force structure has 
shrunk, our number of aircraft has shrunk, that there is a 
clear assumption that there is an overcapitalization there. But 
as a GAO [Government Accountability Office] report pointed out, 
I think there are a number of elements there that need to get 
down to some details.
    I understand, too, that in the process, it is BRAC itself 
that almost brings on that level of study, but I am sure 
internally that you all have done some of that, so when those 
questions get asked--and I am sure that will continue to be a 
question that comes up in the years to come--is to make sure 
that there is at least a level of analysis that has been done 
there to say, hey, here is what we have that indicates at least 
empirically we have a basis for that going forward, without 
going through the full-blown study precipitated by a BRAC, as 
far as those facility capacity issues.
    I wanted to ask a question about the acquisition costs for 
the F-35s [Lightning II Joint Strike Fighter] and the 
affordability of that. Obviously, as we look forward with 
budgets, the F-35 is attracting an awful lot of attention, and 
we want to make sure that, as we are going forward with that 
aircraft, that we understand exactly what is going on. Congress 
needs to understand that. Obviously, the service branches and 
our military partners need to understand it.
    And the funding requirement now currently averages $12.6 
billion through the year 2037. And once acquired, those current 
forecasts for life-cycle sustainment costs for the F-35 are 
considered unaffordable by many defense officials. So as we 
look at that and we look at that next generation, what that 
puts us in a situation is now some of the service branches are 
looking at additional costs to SLEP [Service Life Extension 
Program] existing legacy aircraft and what the costs will be 
for that until we get to this next-generation aircraft with the 
F-35.
    Those create some concerns. Obviously, too, they create 
some cost concerns, they create some uncertainty with our 
foreign partners, that if the production levels go down, costs 
go up, as we have seen. Also, timing is there. It intersects 
with planning for maintenance of legacy aircraft. So all of 
those things are concerning and things that I think need to be 
addressed.
    Can you give us some indication about how you are going to 
address these challenges, what the Air Force has done, and 
looking at their segment of the JSF [Joint Strike Fighter], the 
F-35, and what you all will be doing going forward to address 
the issues of increasing cost, stretched timelines, and life 
cycle sustainment costs for the F-35? And I will open it up 
again for any panel members that would like to address that.
    General Field. Thank you, sir. Yes, the F-35 program is, 
indeed, a very expensive program. And it is scheduled to 
procure quite a few aircraft for the United States Air Force, 
the Marines, the Navy, and our partner nations.
    We have recently reviewed--the JPO [Joint Program Office] 
has recently reviewed that program over the last 2 years, and 
we have assessed that we now have a very realistic way ahead in 
how we are going to procure those aircraft. And we are on a 
ramp to start procuring at a larger rate by fiscal year 2018.
    Now, part of the problem, of course, is that this program, 
as you stated, has been delayed. And we had anticipated many 
years ago to actually have F-35s on the ramp right now, along 
with a much larger fleet of F-22s [Raptor fighter aircraft]. To 
have that fleet--those fleet--those aircraft on the ramp now 
meant we would have been able to divest our current legacy and 
some of the fourth-generation aircraft sooner. Well, that did 
not come to pass for any number of reasons, many of which 
involved the past 10 years of fighting in both Iraq and 
Afghanistan.
    Mr. Wittman. You are okay. That is just a signal that the 
House is going into session, so not a signal to stop.
    General Field. I was just seeing whether I was getting 
graded or not.
    Mr. Wittman. No, no. No, that is----
    [Laughter.]
    There is no button up here for me to push to make that 
buzzer go.
    General Field. I was waiting for the shock next.
    [Laughter.]
    Sir, so what happened--what--we had to keep our current 
generation of aircraft for a longer period of time, and we are 
putting more money into those, because for the foreseeable 
future, we will have a mix of fifth-generation and fourth-
generation aircraft.
    So whether it is the upgrades to the A-10s [Thunderbolt II 
close air support aircraft], upgrades to our F-15s [Eagle 
fighter jet], upgrades to our F-16 [Fighting Falcon fighter 
jet] fleet, we are doing both service life extension programs 
in those to extend the service life of the airframe themselves, 
and we are also putting increased capability into those 
aircraft in the terms of sensor systems, avionics, and self-
protection electronic warfare suites that will make them more 
capable and able to operate in the environments we anticipate 
in the future.
    So we are trying to balance out the effects of the delay in 
the F-35 program, and we are looking to make sure that we track 
that very closely in--along with the Navy, the Marines, and the 
JPO, to make sure that that gets delivered at a reasonable time 
on the schedule that we currently have.
    Mr. Wittman. Okay, very good. General Field, thank you.
    Lieutenant General Fedder.
    General Fedder. Yes, Mr. Chairman. Regarding the life-cycle 
costs, we share your comments and concerns about the future 
costs of that with maintaining that weapon system. And I will 
say, even though the program is very early on, and now in the 
maturity of the weapon system, we have done some things in the 
Air Force, as we look at planning, to reduce those life cycle 
costs, as an example, reducing the number of field training 
detachments that we have, where we can share that maintenance 
training across different F-35 bases, instead of having it--one 
at every base, certain equipment items that are very expensive, 
that are critical to maintenance on the flightline, not perhaps 
having one of those expensive pieces of equipment at every 
squadron or even every base.
    In addition, we are working with the--and supporting the 
Joint Program Office on what they are doing to look at now how 
to reduce those sustainment costs over the life cycle. We are 
standing up our organic depot capability at Hill Air Force Base 
in Utah, at our air logistics complex. We are also working with 
the JPO in supporting them on their initiative to compete the 
workload for repair and sustainment of components, again, 
looking at those life-cycle costs.
    Mr. Wittman. Thank you, General Fedder. I think it is 
extraordinarily important to look at sustainment plans, what 
elements should be in those sustainment plans, as we talk about 
not only today's challenges with our defense budgets, but also 
where are we in the future. Life-cycle cost, sustainment plans 
I think are going to be absolutely critical, so I would 
challenge the Air Force to make sure that you are doing you can 
to have a solid sustainment plan, looking at all the different 
elements of those life-cycle costs, because that is going to be 
not just a challenge today, but it is going to be a challenge 
in the long term for where we go and what then happens for the 
next generation of aircraft.
    So that, I think, is extraordinarily important, so I 
appreciate you enlightening us on at least your perspective on 
how to go forward with those sustainment costs.
    And with that, I will turn to our ranking member, 
Representative Madeleine Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    My first question is in three parts, and I would like to 
ask each of you the question, so if you could be concise in 
your answers, because we are time limited. How will you know 
that your nondeployed forces are not ready to respond to an 
emerging mission or threat? What will be the triggers or 
metrics that will tell you your forces are not ready? And the 
last. Also, in your opinion, how far away are we before we 
reach a significantly degraded readiness status?
    And I will begin with you, General Moeller.
    General Moeller. Thank you, Congresswoman. That is probably 
the most difficult question--group of questions that I have 
been asked in a very long time. And it is difficult for me 
especially, because in my current job as the strategic plans 
and programs director, my job is to look out to the future and 
determine the impacts out into the future, so rather than 
focusing on the immediate impacts, I am--I have spent my days 
and hours over the course of the last few weeks to look out and 
find ways to mitigate those near-term impacts for the future.
    So it is especially difficult for me to answer that 
specifically, and I will defer to my operations and 
requirements brother, Lieutenant General Field, for the 
specifics.
    Ms. Bordallo. General Field.
    General Field. Yes, ma'am. There are several ways that we 
measure readiness in the Air Force, and we have over several 
years. There are many objective measures, and there are some 
subjective measures.
    On the objective side, we can look at things like 
currencies, how--when was the last time we performed a landing? 
When was the last time we performed an instrument approach? 
When was the last time we did this specific mission? We can 
look at proficiency and recency. How many of those missions 
have we done recently in the past? Do they--are they 
representative of the kind of threat environment we might face 
in a conflict that we anticipate in the future?
    We look at experience levels within squadrons and across 
the manning of each unit. That experience comes in very 
specific ways when we identify people having the right amount 
of hours to be called experienced. We have certain criteria 
with which they progress along their experience levels, whether 
it has become a flight lead or an instructor pilot, an aircraft 
commander, an instructor, navigator, flight evaluator.
    We look at the experience level in our enlisted force that 
maintains and operates the aircraft with us, and we look at 
each skill level, and then we look at the manning involved in 
each unit. So those give us an objective measurement of how we 
can measure readiness.
    The other thing we can--we have is we actually have 
subjective measurements, and we rely on our commanders in the 
field to look at how ready their units are to perform the 
missions assigned to that unit. Those men and women we have 
raised through the ranks to probably evaluate this on both an 
individual and a unit level.
    And so we have a pretty good idea of the readiness of a 
unit that is tasked to do something. So that is reported on a 
monthly basis through a reporting system, and we review that at 
all levels throughout the Air Force. And that is why we come 
and we say that we have some readiness issues particularly in 
those higher-end type of missions, because we haven't had the 
recency, we haven't had the volume of training that we feel 
that we need in order to say that we are ready to go fight and 
dominate in a certain environment.
    So in addition to those measurements, we look at other 
issues, such as the health of our aircraft fleets, and we look 
at the quantity of the munitions that we have in the inventory 
to go perform some of those missions in support of war plans. 
And all of that combines to give us an idea of how ready we 
are.
    I will tell you that, when you look at the Air Force and 
you find that 13 of our fighter and bomber squadrons are not 
flying, that is not good. And in 45 to 60 days, those air crew 
and those pilots and navigators and WSOs [Weapons Systems 
Officers] and enlisted folks will be out of currency. So that 
means they will have to regain currency in order to be 
deployed.
    Now, you don't lose your combat capability just because you 
stopped flying for 1 day or 2 days, but certainly 45 days to 2 
months, that is going to be a significant recovery problem, and 
6 months is something that we are just actually going to find 
out, because we haven't actually done that before. So we are 
going to have a third of our fleet on the ground, and we are 
going to figure out in October exactly how we are going to get 
that many folks back up to a readiness level that we think is 
able to go perform the missions that the Nation calls for us.
    Ms. Bordallo. General Fedder.
    General Fedder. Yes, Congresswoman Bordallo, among other 
metrics--in addition to what General Field was talking about--
and from a logistics perspective, I would say principally we 
are talking about aircraft availability, which he referred to. 
One other major metric is looking at our ability to provide 
spares for repair of equipment and especially aircraft that we 
use.
    And we are in a position now where we are already looking 
at the spares that we have on the shelf, those components that 
we use to repair aircraft and those that we are able to turn in 
a depot or through another repair facility, and having to 
allocate those sparingly to units, because we don't think that 
we are going to have the capability to generate enough between 
now and the end of the fiscal year, to--as a result of 
furloughing--having to furlough folks at our repair facilities 
at our depots.
    So, you know, spares being an important readiness measure 
and not knowing and not expecting that we will have enough to 
last us through the fiscal year and to make sure that we have 
that aircraft availability that contributes to that readiness.
    Other things that we think are very important and we look 
at especially for our force response would be the amount of war 
readiness materiel, equipment that we have that is 
prepositioned around the world in theaters like the CENTCOM 
[U.S. Central Command] area of responsibility or in the PACOM 
[U.S. Pacific Command] responsibility, looking at, how are we 
doing with that WRM [War Readiness Materiel] And do we have 
enough equipment to be able to respond to operational plans?
    And then the last thing I would say is important, going 
back to my first point, is our ability in our depots to surge, 
to be able to respond to a combatant commander's need, and to 
be able to drive an increased amount of equipment through the 
depot to repair equipment as needed. And, again, as we look at 
the potential for furloughs is, we are really jeopardizing our 
ability to be able to do that.
    Ms. Bordallo. Thank you. Thank you very much.
    General Clarke.
    General Clarke. Yes, ma'am. I think my colleagues did a 
really good job of articulating some of the things that would 
be triggers and other things that you asked for. I would tell 
you, though, we are not grounding any squadrons in the Air 
National Guard at this time, but there are things that we are 
not testing ourselves, so we are not flexing the bicep as much. 
We are not doing big exercises like Red Flag, where we used to 
really stress our forces to see how good they are. Once you 
stop doing those, you don't even know how good you are anymore. 
It is not--you can't even measure it. So you start getting into 
a realm where you are not really sure what your capability is, 
so it is very difficult to put your finger on it.
    I will tell you that the commanders in the field are 
probably the best ones to ask, because they will be able to 
sense that their squadron is not doing as well as it used to 
do. It would be indicative of the fact that the air-to-air 
engagements don't go as well as they used to. Bomb scores are 
not as good. And all this can be reported eventually into a 
formal system--an acronym of sorts--but it is a system for 
reporting in where we stand as far as readiness.
    Also, I would say, on the maintenance side, and I know I am 
in General Fedder's territory here, but all the aircraft have 
a--we call the forms 781 documents and all that--when you go in 
and you open it up, and it is just full of write-ups that 
haven't been accomplished, eventually you end up with an 
airplane--it is almost like climbing into your car and the seat 
doesn't adjust, the radio doesn't work, one of the windows is 
stuck down, and then you start flying the airplane, it is the 
same thing. Those kinds of things are--that is an indicative 
that you are not getting things done that should be done, so 
those are all readiness concerns that would be triggers to 
commanders in the field who can report that back up through 
their chain of command, to tell you this is where we are at.
    So it is a hand-in-hand operational and maintenance, I 
think, and focus of the people, keep them engaged in what they 
are doing. I know it has got to be hard on the regular Air 
Force pilots who aren't flying right now, when the other air 
crew members--that is tough. And then we have these total force 
associations where you might have Guard or Reserve airmen 
flying in the same organization where the regular pilots can't 
fly. That is hard.
    Ms. Bordallo. Well, these reports are disturbing, 
certainly. Finally, from General Haddad, representing the 
Reserves?
    General Haddad. Congresswoman Bordallo, thanks for the 
question, and I think my colleagues have pretty much answered 
the question, but let me just add another aspect to it. The Air 
Force Reserve is celebrating its 65th anniversary this month. 
And for 65 years, we have prided ourselves on being that tier-
one ready force, which we meet all the standards that General 
Clarke talked about in his opening statement, the same 
standards that our Active Duty members do.
    We have maintained that tier-one ready force. We are that 
combat-ready, effective, and efficient force that our Nation 
calls on when needed as a strategic force, but for the past 20-
some years, we like to talk about it from 9/11, but we have 
really been at this--the Air Force has been at this since 1990. 
And I personally have deployed eight different times to the 
theater since that time period.
    So your Reserve force is that ready force. We--thankfully 
to Congress, you have appropriated us differently that gives us 
that flexibility to continue to fly. Once we sense that that 
tier-one readiness is starting to be mitigated, marginalized, 
that is when I believe we will be able to answer your questions 
more appropriately, and then we don't know what will happen in 
fiscal year 2014.
    Thank you.
    Ms. Bordallo. Well, I thank you all for being very frank 
with your answers.
    And, Mr. Chairman, I have a few others, but do we have a 
second round here?
    Mr. Wittman. Yes, we will have a second round, yes.
    Ms. Bordallo. Very good. And I yield back.
    Mr. Wittman. Thank you, Mr. Bordallo.
    And we will now go to Mrs. Noem.
    Mrs. Noem. Thank you, Mr. Chairman.
    And I want to thank all of you for being here and taking 
the time to sit in front of the committee. Recently, the B-1 
[Lancer] bombers at Ellsworth Air Force Base in South Dakota 
were grounded until October 1st. And as you know, the B-1 has 
been the workhorse of a lot of the operations that have been 
going on in Afghanistan for about a decade.
    The B-1s at the 28th Bomb Wing in Ellsworth have performed 
admirably. The operations in Libya, in less than 2 days, 
Ellsworth generated aircraft that were able to strike targets 
halfway around the world. The thought of reducing the flying 
hours for these men and women and not providing our airmen with 
the cockpit time that they need is very concerning for me.
    So maybe this is for General Field, the first question is, 
how will this new tiered readiness with reduced flying hours 
affect our ability to respond quickly like we saw in Libya? 
With the 2 days' notice, we had our B-1s in the air, going and 
in operation, and I am concerned that we won't have that kind 
of response the next time.
    General Field. Congresswoman Noem, that is an excellent 
question. The way we approached this problem that we are 
having, based on an unpaid OCO [Overseas Contingency 
Operations] bill and then the sequester, was to--that forced us 
to pay that money out of mainly our flying hour accounts and 
our weapon system sustainment accounts. And it equated to a 30-
percent cut when you went through all the math between now and 
the end of the fiscal year on our flying hour program.
    So what we focused on was the current fight that we are 
having in Afghanistan, and we wanted to protect both the airmen 
that were fighting that fight right now and the next to deploy 
into that fight, so that was our number-one priority, followed 
by other operations around the world, such as our support to 
the French in Africa, our operations in the Horn of Africa, and 
some other small ones around the world.
    We wanted to maintain the readiness of the forces that were 
stationed in the Republic of Korea, in South Korea, and as much 
as possible in Japan, because those are ``fight tonight'' 
forces, as well.
    And then we wanted to maintain the readiness of certain 
squadrons that are tasked to be ready to deploy in case there 
is an issue around the world. So when we got to that, there 
wasn't a lot of money left. And there was enough money left to 
keep another 8 squadrons flying at a reduced rate, and that led 
us--and that was the end of the money. And we had 13 squadrons 
still left to go, and those squadrons are not flying.
    Mrs. Noem. How did you prioritize those squadrons when you 
got down to the eight that were funded and kept flying?
    General Field. We went to the major commands, ACC [Air 
Combat Command] and Air Force Global Strike Command. We, for 
example, we needed to maintain the nuclear deterrence in Global 
Strike Command in terms of the nuclear bomber capability that 
they had. And then we maintained--and then it was the next 
schedule to deploy. And the ones that weren't next to deploy or 
doing some of those other missions, we stood them down.
    Mrs. Noem. So what will 2014 look like? Will this be 
regenerated and duplicated for the next coming year? Or do we 
have a different situation?
    General Field. Well, we are not sure what the budget will 
be like yet, but the budget that we submitted was designed to 
stop that erosion of readiness. However, that budget was 
designed and submitted prior to the sequester action.
    So the budget that we have right now does not take into 
account this 6 months of not flying by those 13 combat-coded 
squadrons, but there are several other squadrons, another 17 
squadrons, that are also not flying that are not combat-coded 
squadrons.
    Mrs. Noem. So did you say that you did not request funding 
to bring them back up to the level they were before?
    General Field. The fiscal year 2014 budget did not account 
for sequester, because it was submitted prior to the sequester 
actions being taken. So it is designed to get us back up to the 
readiness levels that--in a little bit better than we were 
prior to the sequester, is what that budget----
    Mrs. Noem. You are saying you submitted your budget to the 
Administration before the sequester happened?
    General Field. Yes.
    Mrs. Noem. Okay. Thank you for that clarification.
    I don't have any further questions, so thank you, Mr. 
Chairman.
    Mr. Wittman. Thank you, Mrs. Noem.
    We will now go to Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman, and thanks to all of 
the witnesses for being here today and for your candor. I 
appreciate that very much. And it is always--I have got be 
evenhanded, you know, in terms of all of the branches are 
wonderful, but I have to say, having grown up in an Air Force 
family, it is great to see you all here today. Grew up on 
Davis-Monthan Air Force Base in Tucson.
    I have a question for General Moeller and also, I think, 
Generals Clarke and Haddad might want to comment on this. I am 
sure you all agree that the Air Force Reserve and the Air 
National Guard are very critical and complementary and cost-
effective capabilities to our Air Force. In Tucson, just across 
the district line is the 162nd Fighter Wing of the Air National 
Guard. While my neighbor, really, has them in his district, I 
claim them, as did Congresswoman Giffords before me.
    They are an incredible unit. They train foreign pilots--22 
allied forces come there to train in F-16s, and they do an 
amazing job. I am concerned about the future for them, for all 
of our Air Guard, and our Reserves, because they are so 
critical. As we know, in the two wars that we have fought over 
the last decade or so, we have deployed more Reserve and Guard 
members than perhaps we ever expected.
    So I want to ask a question about the future of the Guard 
and of the Reserves. We have, for example, in terms of trying 
to hold onto aircraft that are aging, I have done some work, 
and a good example is the 355th Wing at Davis-Monthan of the 
Air Force. We have had to rewing the A-10s. I mean, they are 
30-year-old planes, but they are still incredible planes that 
do a wonderful job. But they are 30 years in service.
    So as we think about where we are going with the Guard and 
Reserve, could you speak to this issue? What are the Air 
Force's priorities to ensure that the Guard and Reserve fleets 
are prepared to support the total force, particularly as we 
think about the F-16 being phased out, presumably being 
replaced by the F-35?
    So as we look at these aging aircraft, certainly the A-10 
is the most aging of the fighters that we have in the air now. 
What are the priorities for the Air Guard and for the Reserve, 
as we think about maintaining their capability and their 
aircraft going forward?
    General Moeller. Thank you for the question, Congressman. 
Sir, the question itself is very important to our Air Force. As 
we look out not just 10 years, but if we look to the 
foreseeable future, the way that I think all of us look at our 
Air Force, it is a total force in every way. All three of the 
components working together are--will be the key to our success 
to meet any future challenge.
    With that in mind, we have a total force task force that is 
led by three 2-star generals, one from each of the components, 
that is literally looking exactly at the questions that you 
have asked, specifically focused on what capabilities, what 
composition and mix does the Air Force require across the total 
force from the three components in order to ensure that we can 
meet the defense strategic guidance and the national security 
requirements of the future?
    We are looking exactly at those questions, and it covers 
the broad range of policies, personnel, personnel requirements, 
force structure, and how do we take the unique advantages that 
come from the Reserve Components--both the Air National Guard 
and the Air Force Reserve--and ensure that they also--that they 
mesh with the unique capabilities of the Active Duty to ensure 
that we can cover the full spectrum of our responsibilities for 
the future?
    Mr. Barber. Can I just follow up before anyone else 
comments? And that is, this task force has a timeline, I 
assume, that is when they are going to report back with 
recommendations. Can you share any information about that?
    General Moeller. Yes, sir, it was set up as a 6-to 7-month 
task force with recommendations to the secretary of the Air 
Force and the chief of staff. I believe that the task force 
originally was designed to report out in October. We have 
slipped that slightly, only because they have--as they got 
started, they found that they started with a comprehensive 
review. And to really take a good look at what has gone on 
before, both from a report standpoint, from an analysis 
standpoint, and to really come to a general agreement amongst 
the components on what actually is.
    So I would--that is a long answer. I think November, early 
December, the task force will report out on its findings.
    Mr. Barber. Very good.
    Mr. Chairman, and I know I am running out of time. I might 
suggest that we ask for a report when it is appropriate from 
that task force's recommendations, having gone to the 
Secretary. I think it is really important that we are kept 
current on this. I agree with other members who have said--I am 
really dismayed about where we are putting our Air Force and 
all of our military branches with sequestration. We have to 
come to terms with it. Hopefully that report will help us do 
so.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Barber. We will do just that. 
We will make sure that we note the request for that report, and 
as soon as we get it, we will make sure it is available to all 
members.
    With that, we will go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Haddad, good to see you again. And as we look 
forward to this report on the structure of the Air Force, 
understanding that there are clearly some things that are going 
to have to be changed, efficiencies and cost savings that can 
be gained by moving things to the Reserve Component, what roles 
and missions do you believe best suit the Air Force Reserve, as 
we move forward from today?
    General Haddad. Congressman Scott, it is great to see you, 
as well. And thanks for the question.
    As I mentioned in my report, my oral statement, as well as 
the last comment about the fact that the Reserve has always 
prided itself on being that combat-ready, efficient, and 
effective, and cost-effective force, there is no question that 
there is a need for us. They established the Guard and Reserve 
for a particular reason, and that reason was to have that 
strategic force to be able to be operationalized.
    Well, the bottom line is, we have been operationalized 
since the Desert Shield, no question about it. And I was 
listening to the Army's testimony to you a few days ago, and 
they talked about the fact that we have been operationalized 
and the experiences that we have gained over the years. It 
would be--it would not be good for our Nation, I don't think, 
to let that be put back on a shelf.
    As far as mission steps, I would not want to get ahead of 
the total force task force that General Moeller just talked 
about. And I think--and my hat goes off to Chief Welsh and 
General Moeller and his staff, who are being very extremely 
transparent with this process, and I think it is important that 
we really look at the roles and missions of our Guard, Reserve, 
and Active Duty, and then come back and make those assessments 
as to where we have put weapons systems and force structure. 
And I truly believe that it is better to put it in the Guard 
and Reserve, as opposed to putting it in Congressman Barber's 
boneyard there in Tucson, because I think it allows our Nation 
to have that capability and capacity at a lower cost.
    Mr. Scott. Yes, sir. It certainly gives us the ability to 
surge----
    General Haddad. Yes, sir.
    Mr. Scott [continuing]. As we--General Fedder, the 
requirement for the three organic depots in the Air Force, is 
that still there?
    General Fedder. Congressman Scott, we have plenty of work 
for the three organic depots that we have at Warner Robins, 
Oklahoma City, and at Ogden. And we have seen the workload--the 
amount of workload has been fairly stable over the last few 
years. And they have been increasing their effectiveness and 
productivity and fully expect that into the future, as well.
    Mr. Scott. Yes, ma'am. So you are comfortable with the 
allocation of the workload across the sustainment enterprise, 
based on that statement?
    General Fedder. Yes, sir, Congressman Scott. We look at 
very carefully what should go in to the organic depots. I mean, 
where--what does the Government do best? And what we do best is 
bring great expertise, talent, and folks that can manage weapon 
systems together, and then we try to balance that with what is 
appropriate to have on the contractor side, as well.
    Mr. Scott. Yes, ma'am. I think we do a pretty good job with 
that. And I will tell you, one of the concerns that I have is 
somebody who represents a depot, is as we make some short-term, 
budget-related decisions, my concern is that if we move it from 
what is an organic capability into the private sector, while it 
might be cheaper today, it might give us a better price on it 
today, once we are no longer able to do it ourselves, we may 
end up paying significantly more for it in the long run.
    Mr. Chairman, I had most of my questions answered. I know 
my respective time for the gentlemen and lady--I will yield the 
remainder of my time.
    Mr. Wittman. Very good. Thank you, Mr. Scott.
    We will now go to Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    General Clarke, I was very glad to hear you talking about 
the total force concept the way it is. And I am sure General 
Haddad was, too, as well as the other members of your panel. 
And I just want to share with you that, frankly, I am very 
surprised that our chairman and our ranking member's questions 
were so sharp and crisp, because the two of them, along with me 
and three other members, just got back from Afghanistan 
yesterday morning.
    So my questions may not be quite as crisp as theirs. 
Perhaps they slept better than I did. But as part of that 
journey that we took to meet with your airmen and our airmen, 
we spent more hours on a 130 [C-130 Hercules tactical 
airlifter] than I have spent in the last couple of months. And 
it was a great trip, and it showed the great work that is being 
done by the total force, because when we went in, we went in on 
an Active Duty airframe. And when we came out, it was on a 
Reserve airframe. And frankly, I don't know if the airmen 
flying those planes were Guard, Reserve, or Active Duty, 
because I know that you integrate those crews.
    The last time I went to Afghanistan, when I was wearing a 
different suit than I am wearing now, I flew in on an Illinois 
Air National Guard 130, because it had that orange and blue 
flash on the tail, and I thought I was going to talk to some of 
my guys, and it was an Air Reserve crew intermixed with an 
Active Duty crew.
    So congratulations on doing great work on integrating the 
force. And I know that you are going to keep doing that, 
because they do provide the surge capacity. So having preached 
to the choir on that, I do have a couple questions.
    Lieutenant General Fedder, if I heard you correctly, when 
you were talking about the military construction that is being 
planned, you said it was going to be the really critical, 
critical pieces that were being planned and going forward with. 
When I looked at the military construction FYDP [Future Years 
Defense Program] that just came down, last year, there was a 
mission planning center for TRANSCOM [U.S. Transportation 
Command] at Scott Air Force Base, which, of course, is in my 
district and has Guard, Reserve, and Active Duty Components 
there. That was on the FYDP for fiscal year 2016 last year.
    There was also a squadron operations center for the 126th 
Air Refueling Wing at Scott Air Force Base on that FYDP for 
fiscal year 2016. Both of those have fallen off the FYDP. They 
are no longer on. And that concerns me greatly. I think--
particularly with what we saw in Afghanistan, with the planning 
that is going on for the retrograde movement, the critical 
things that TRANSCOM does day in and day out to move our 
soldiers, sailors, and marines, and airmen around the world, 
and all of the materiel that is necessary to support the things 
that they do, to have something as important as a new mission 
planning center, which was justified and funded, fall off 
concerns me.
    And with the 126th Air Guard's squadron operations center, 
I know that that was critically, a critical issue for that 
unit, and that is an active associate unit, of course. So can 
you tell me--and if you need to get back to me with a written 
answer, that is fine. But can you tell me what happened to 
cause those 2 projects to fall off the FYDP?
    General Fedder. Congressman, in your--I will say that 
with--in the process of determining what the MILCON priorities 
are going to be from year to year is we have--we work together 
and fold in the priorities from the combatant commanders, if 
they are a part of that installation, from both a Guard and 
Reserve Component, as well as the Active, and bring those 
together and prioritize those very carefully based on what the 
Components have requested as their priority, and then what do 
we need across the Air Force to ensure----
    Mr. Enyart. Thank you, General. I am going to interrupt you 
and cut you off, because I have only got 40 more seconds.
    General Fedder. Yes, sir.
    Mr. Enyart. I got one more very important question.
    General Fedder. Yes, sir.
    Mr. Enyart. And that is that the Air Force is the largest 
consumer of fuel in the Department of Defense: $9.7 billion 
worth of fuel gets consumed there. The U.S. Navy is currently 
exploring aviation uses of biofuels. I would urge the Air Force 
to do the same. In my district, a huge agricultural district, 
it is the center of the corn-growing industry, the center of 
the biofuels. We have a biofuel research center at SIU 
[Southern Illinois University] Edwardsville, which is 10 
minutes from Scott Air Force Base.
    I would like to know, is the Air Force considering the use 
of biofuels? And if not, why not?
    My time is 7 seconds, so you can submit that to me in 
writing, if you need.
    General Fedder. Yes, sir, Congressman. And I will say, we 
share your interest in alternative fuels for weapons systems, 
given the amount that we do consume. And I will be happy to 
provide some more detail back with you on that, as well as the 
MILCON projects that you are interested in.
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. Enyart. Thank you, General.
    Mr. Wittman. Very good. Thank you, Mr. Enyart. And, again, 
thanks for your endurance on this most recent trip to 
Afghanistan. It was, I think, a fulfilling trip for all of us. 
And we look forward to doing it again.
    Panel members, I appreciate you giving us your perspective. 
One of the things I have gained from your initial responses to 
our question is the issue of the impact of the current 
sequester, the reduction in funding, and what that does to 
overall readiness for the Air Force.
    And let me ask this, and I will start with General Field. 
If you look at where the Air Force has been, presequester, and 
I would even go back to maybe even the beginning of the 2011 
BCA [Budget Control Act] process that began this process of a 
potential looming sequester, let me ask this, with where the 
Air Force is now and where it will go getting through fiscal 
year 2013.
    What will--how long will it take for us to get back to, 
let's say, where we were at the beginning of 2011? And then 
what will it take to get us back to a full spectrum of 
readiness? And I understand that even going into 2011, the full 
spectrum of readiness, with all the elements being in green, 
was not something that we started from, but give me a 
perspective from a timeframe about how long it would take for 
the Air Force to get back to that particular point after this 
dip in 2013.
    General Field. Sir, we think that the 3 to 6 months after 
this 6-month standdown is probably what it is going to take to 
get us back to kind of where we were before, and that is an 
assumption right now, because, again, we are not sure--because 
of the scope and magnitude of the number of people and units 
that are being stood down.
    In terms of long-term how can we get back to full-spectrum 
readiness, if we are fully funded and we have enough time to do 
it, it would probably take about 2 years, because we--it would 
take shorter if we didn't have operational commitments around 
the world, but that is not the case. So taking into account the 
operational commitments that we have around the world, it would 
take probably about 2 years at a fully funded rate.
    Our problem, of course, is that we have to balance 
readiness now for what now versus readiness 10 years from now, 
as General Moeller was pointing out. So if we trade all of our 
readiness 10 years from now for readiness now, we are going to 
have the same force 10 years from now with 10 years more 
problems.
    So that is the delicate balance that we have when we talked 
about readiness. It is over a continuum of time. And it--you 
have to look at the different threat environments that we might 
be operating within across that continuum of time and make the 
best balanced approach that we can to provide you and the rest 
of our Nation with the Air Force they deserve.
    Mr. Wittman. Very good. Thank you, General Field.
    Anybody else on the panel would like to comment? Okay. Very 
good. Let me ask this. How is the ``Fight Tonight'' operational 
concept impacted if the Army can't meet its requirements there 
in the Korean peninsula? And my concern is, is as we look at 
that joint capability, and, obviously, there is a lot of 
interaction that goes on there--the Korean peninsula with its 
developing issues there, how is the Fight Tonight operational 
concept affected, if the Army can't meet their requirements for 
readiness in that region?
    General Field. Well, I would be hesitant to speak for the 
commanders in Korea or in the Pacific, but I will give you a 
measured opinion on that. If something was to happen literally 
tonight in Korea, obviously, the people that were stationed in 
Korea and in Japan are the ones that would actually be doing 
the fighting tonight. So across our military, we have Army, or 
soldiers, sailors, airmen, and marines that are all postured to 
respond to such a contingency. We also have then a plan to flow 
forces in right behind that.
    First on those lists is--most of that is Air Force right 
away and to get in place. So if you imagine, in Korea, the 
forces there, in conjunction with our allies in the Republic of 
Korea, would begin the defense of the Republic of Korea, the 
forces in Japan, all of the air forces, the marines, and the 
7th Fleet would all move forward to support that effort, and 
then we would flow in follow-on forces that would operate both 
out of Korea and Japan to sustain that fight.
    And if the Army, for whatever reason, they didn't have the 
forces to meet the plans, then the commanders on the ground in 
Korea and in the AOR [Area Of Responsibility] would have to 
adjust that plan, because of that fact.
    Mr. Wittman. Very good. Thank you, General. Anybody else on 
the panel would like to comment? Okay. Very good. Well, with 
that, we will go to Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And I wish to also 
extend my remarks that he made on our recent trip to 
Afghanistan. We certainly did learn a great deal, and it was 
disturbing to hear how, you know, sequestration is going to 
affect our operations, not only there, but everywhere we are 
represented.
    General Clarke, I want to ask this question of you, the Air 
National Guard. How are you incorporating Title 32 requirements 
into the force structure discussions? And finally, how is the 
Council of Governors being utilized in these discussions?
    General Clarke. Yes, ma'am. The--most of the stuff that we 
use for Title 32 requirements come from our Federal mission, 
the things that we are designed to do with the recs 
[recommendations] of the total force going forward, to engage 
overseas. So a large component--roughly, I would say, 90 
percent of that is all the things that we can put to use in 
the--more or less the ground equipment can be used on the 
ground for domestic disaster.
    Honestly, we don't have a real good process for determining 
all of the Title 32 requirements for what is needed in the 
homeland. When we look at some of the complex catastrophes that 
I have seen portrayed by OSD [Office of the Secretary of 
Defense] policy and others, we really have to look at this 
pretty hard, because it could be casualties on numbers of 
hundreds of thousands that could happen, based on the 
earthquake in New Madrid, tsunamis, et cetera. So it needs more 
fidelity, actually.
    Ms. Bordallo. Exactly. Exactly. I agree. And how are the 
Council of Governors, they are being utilized in these 
discussions?
    General Clarke. Yes, ma'am. I have only participated in one 
meeting with the Council of Governors on a telecom, where we 
discussed a few things. They didn't get too deep into the Title 
32 requirements, but we are engaged with them in providing 
information to them as requested.
    Ms. Bordallo. Good, all right.
    Either General Fedder or General Field, whichever, what 
specific flexibilities or exceptions did you request in terms 
of furloughing the civilian personnel who provide the backbone 
of support for our operational Air Force? And also, what is the 
impact of using borrowed military manpower to backfill civilian 
positions or functions previously performed by contractors?
    General Fedder. Congresswoman Bordallo, I will start out 
and answer that we did make--we have requested some exceptions 
for first responders, at least in my business, but that was 
pretty much the extent of those that we have requested.
    And with regard to using military manpower to backfill, if 
we do furlough our civilian workforce, there are a few places 
where we could do that sparingly, like at the front gate of the 
base, where we have civil servants that provide security or 
gate access. We could use security forces for that on a limited 
basis.
    But when we are talking about the contribution of civil 
servants across something like our depot operations or even 
field-level maintenance, where we have the vast majority of our 
maintainers are civil servants, there is no way to account for 
that with using military manpower. And that is the real----
    Ms. Bordallo. Problem.
    General Fedder [continuing]. Impact of a potential furlough 
across maintenance in the Air Force.
    Ms. Bordallo. Uh-huh. General Fedder?
    General Field. Yes, ma'am. I don't have much to add to what 
General Fedder said, but, you know, in addition to that, some 
of our flying units, especially in the training environment and 
the training commands, are maintained by our civilian 
workforce. And so the aircraft are maintained by them, and the 
simulators are taught by a lot of our civilian force. And so 
that would have a huge impact on the production of pilots and 
air crew, if we were to see the full furlough.
    Ms. Bordallo. Thank you, General. And excuse me for 
referring to you as General Fedder. You don't look anything 
like her.
    [Laughter.]
    General Field. No, ma'am. But it is--but I don't take that 
as an insult. We all want to be Judy Fedder.
    [Laughter.]
    Ms. Bordallo. I have now another question here for you. 
This is for General Fedder. The military has to continue to 
invest in people while also developing new and improved 
weapons. What changes do you anticipate in the coming years 
that would encourage retention of our best and brightest 
employees and also sustain the long-term health of the organic 
industrial base?
    I am concerned with our specialized workforce, such as 
those at military depots who may leave Government service due 
to the threats of furloughs and sequestration.
    General Fedder. Yes, ma'am. Congresswoman Bordallo, I would 
say that what we can do to make sure that we are retaining that 
talent is, for one thing, give them the kind of work and the 
challenges, and that means letting them be at work every day 
and do what we trust them to do.
    We have a great deal of talent, especially when we look at 
something as big as our aircraft depots, when we are talking 
about some very highly skilled mechanics and, as an example, 
some really bright talent among software engineers.
    And we challenge them with developing operational flight 
programs for legacy weapon systems, like the B-1 and the B-52 
[Stratofortress strategic bomber] and even the F-16. And we 
need to give them the tools, the education and training so that 
they can excel at those important tasks that we have given 
them, and I think that we will retain the kind of skills and 
talent we have, if we can continue to do that.
    Ms. Bordallo. Okay. Thank you. Thank you very much, 
General.
    And I have no further questions, Mr. Chairman. I yield 
back.
    Mr. Wittman. Okay, thank you, Ms. Bordallo. And I think 
that is the end of our proceedings here, so I want to thank our 
panel members for coming to join us today. Thank you so much 
for your insights. Thank you, too, for your service to our 
Nation. And please pass on to the entire Reserve, Air Guard 
Component, and our Active Duty Air Force men and women, how 
much we appreciate their service and contributions to our 
country.
    And with that, we stand adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 24, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 24, 2013

=======================================================================

      
                  Statement of Hon. Robert J. Wittman

               Chairman, House Subcommittee on Readiness

                               Hearing on

              The Readiness Posture of the U.S. Air Force

                             April 24, 2013

    Welcome to today's hearing on ``The Readiness Posture of 
the United States Air Force.'' I'd like to extend a warm 
welcome to our witnesses today:
        <bullet> LLieutenant General Michael Moeller, Deputy 
        Chief of Staff for Strategic Plans and Programs;
        <bullet> LLieutenant General Burton Field, Deputy Chief 
        of Staff for Operations, Plans and Requirements;
        <bullet> LLieutenant General Judith Fedder, Deputy 
        Chief of Staff for Logistics, Installations and Mission 
        Support;
        <bullet> LLieutenant General Stanley Clarke, Director 
        of the Air National Guard; and
        <bullet> LMajor General Richard Haddad, Deputy to the 
        Chief of the Air Force Reserve.
    Thank you for joining us.
    Generals, in your statement, you noted that ``allowing the 
Air Force to slip to a lower state of readiness requiring a 
long buildup to regain full combat effectiveness negates the 
essential strategic advantages of airpower and puts joint 
forces at risk.'' There is no better example of such 
unacceptable risk than on the Korean Peninsula where the Air 
Force and the Army work hand in hand to secure our interests.
    I was alarmed when General Odierno testified before the 
Senate Armed Services Committee yesterday that we are heading 
toward a hollow force and that budget cuts could threaten Army 
readiness levels on the Korean peninsula.
    In your statement, you indicated that one-third of fighter 
and bomber forces are currently standing down and that more and 
more pilots are not ``ready'' or trained and qualified to meet 
operational mission requirements such as those in Korea where 
the Air Force and Army work as critical partners to assure 
peace and
stability.
    The pressing concern in my mind is: What is the level of 
risk we're assuming by these actions? When will we have assumed 
too much risk and essentially emboldened an already bellicose 
and unpredictable leader? Have we reached this point already? I 
hope you'll address this issue in your opening comments and 
highlight other direct mission impacts that have resulted 
because of sequestration and the budget crisis. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 24, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ENYART

    General Fedder. The ability to use alternative fuels in Air Force 
aircraft provides expanded fuel options for freedom of action in total 
operations. To expand our options, the Air Force has been focused on 
the testing and certification of the most promising alternative fuels 
to retain DOD influence on commercial fuel specifications. Based on an 
evaluation of market conditions and discussion with commercial 
partners, the three processes evaluated to date have been 50/50 blends 
of traditional JP-8 and either Fischer-Tropsch synthetic fuel (FT), 
hydro-processed renewable jet (HRJ), or alcohol-to-jet fuel (ATJ). Both 
HRJ and ATJ are biofuels. We have certified our entire aviation fleet 
for unrestricted operations on both the FT and HRJ blends. Moving 
forward, the Air Force is looking to increase its use of alternative 
aviation fuels, provided those fuels are drop-in fuels that are cost 
competitive with traditional petroleum-based jet fuels.
    With regard to the Military Construction projects, the Air Force is 
making every attempt to place our most urgent military construction 
requirements in the Future Year's Defense Program. While there is 
obviously a need for the projects in question at Scott Air Force Base, 
there simply is not enough funding to accommodate all of the Air 
Force's most urgent requirements within the current Air Force Budget. 
We will make every effort to include these projects in a future 
President's Budget if funds are available. We look forward to your 
continued support for military construction projects and other critical 
Air Force priorities through the fiscal year 14 budget cycle. [See page 
21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 24, 2013

=======================================================================

      
                   QUESTION SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. I would like to focus on a subject that we don't 
bring up all too often: aviation demo teams, and in particular the 
Thunderbirds.
    I know they have been grounded for cost-savings measures due to 
sequestration. However, in the event that order is lifted and they 
start to participate in airshows again, I think it is important for 
them to focus on airshows here at home.
    It is not in the best interest of our fiscal challenges to allow 
defense demo teams to perform abroad, which the Thunderbirds were 
scheduled for an August 22nd through September 30th Pacific-Asia Tour. 
That schedule would prevent local communities during prime summer weeks 
to benefit from the associated economic benefits these demo teams bring 
with their scheduled appearances.
    With that said, can you please tell me:
    a) What is the entire budget, including airlift, for the 
Thunderbirds in the FY14 PB request?
    b) Does that reflect the presequestration schedule, which included 
Aug 22-Sep 30 Pacific/Asia?
    c) Can you tell us how much was budgeted specifically for those 
Pacific/Asia stops?
    d) Assuming the Thunderbirds resume participating in airshows, will 
they still do a Pacific/Asia tour?
    e) Finally, how many U.S. shows would the Thunderbirds be able to 
do in lieu of that Pacific/Asia trip?
    General Moeller and General Field. a) In Fiscal Year (FY) 2014, the 
entire budget for the USAF Air Demonstration Team (``Thunderbirds'') is 
$35.5 million. This includes unique expenses associated with team 
practice, travel to demonstration events, and the demonstrations 
themselves.
    b) No. FY2014, which begins after the end of the planned Pacific 
tour, was a domestic tour schedule and the Thunderbirds' funding 
request reflects the cost of a U.S. show season.
    c) For FY2013, the flying hours, airlift and travel/lodging costs 
for the 2013 Pacific tour are extrapolated from what the team did 
during their 2009 Pacific tour; actual 2013 Pacific tour locations and 
dates were still tentative when the season was cut-short by 
sequestration. The cost differential between performing the six-week 
Pacific tour and performing seven weekend events in the United States 
has been estimated by Air Combat Command as $2.5 million.
    d) In response to DOD sequestration guidance, the Air Force has 
canceled aerial demonstration team performances including the U.S. Air 
Force Thunderbirds for the remainder of the show season. This decision 
enabled the Air Force to reallocate flying hours to combat readiness 
training and deployment commitments. Due to this decision, the U.S. Air 
Force Thunderbirds halted their practice, have lost currency and 
qualifications and will have no capability to perform any shows this 
season, including the proposed tour to the Pacific region.
    Although this year the demonstration team will not be able to 
participate in an overseas event, there has been no determination about 
what will happen in future years as these international events are 
important to the Air Force. U.S. participation in international 
aviation trade shows serves to further our engagement with partner 
nations and their militaries by developing mutual trust and confidence. 
Until the recent decision to cancel air show participation due to 
sequestration, the U.S. Air Force Thunderbirds, supported this overall 
effort in one of the most recognizable and inspiring ways. The Air 
Force premier demonstration team's participation in international air 
shows is part of our international and public diplomacy and 
demonstrates to nations around the world the precision capabilities of 
our world class air force. The display of U.S. aircraft, and the Airmen 
that operate them, speaks volumes about U.S. technology, training, and 
our professional military ethic. Together these serve to inspire 
partner Air Forces to develop and/or strengthen their relationship with 
the U.S. Air Force. They also seek to develop their own capabilities 
through acquisition of platforms and the requisite training and 
sustainment to achieve high levels of proficiency and professionalism 
and most importantly contribute to global security. The results can be 
measured in real terms as partners acquire U.S. systems through Air 
Force Foreign Military Sales (FMS) and Direct Commercial Sales (DCS) 
programs contributing $22.9 Billion per year to the U.S. economy and 
supporting 276,800 jobs in as many as 46 states, and contribute to 
coalition operations.
    e) Due to the cancellation of the 2013 Thunderbird schedule, the 
team has halted their practice, have lost currency and qualifications 
and will have no capability to perform any shows this season. 
Therefore, regardless of the fate of the Pacific/Asia trip this year, 
no additional shows would be added to the Thunderbird schedule in 2013. 
As for the future, the Thunderbirds normally support one show a weekend 
during their prime flying season of mid-March through mid-November. In 
2013, the Thunderbirds were scheduled to support 25 airshows and three 
flyovers in addition to a 5 week tour overseas. The Thunderbirds 
perform overseas trips every other year and these trips are scheduled 
strategically to fall during the second year of the Thunderbird 
Commander's tour with the team, therefore, they would not have another 
proposed overseas trip until 2015. The exact dates of an overseas tour 
are dependent upon the location of the tour. Each geographic area 
schedules their key events during different times of the year, 
therefore the Thunderbirds are typically not gone the same months each 
show season and are normally never gone for more than 5 weeks.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. Given that many of the force structure changes--
especially those in the Air National Guard and Reserve--that are slated 
for FY 2013 will take multiple years to carry out, does the FY 2014 
budget request fully support the mission changes and transfer of Air 
National Guard and Air Force Reserve missions, including all budgetary 
costs, that will begin in FY 2013? Are there costs associated with the 
transfer of missions that are not budgeted for in the FY 2014 budget 
submission? If so, what are those costs, what will the impact of them 
be, and will it affect Air Force and unit readiness as well as 
individual airmen?
    General Moeller, General Field, General Fedder, and General Haddad. 
For the Air National Guard (ANG), the FY 2014 budget does not fully 
support mission changes and transfers of Air National Guard (ANG) 
missions that began in FY 2013. Funding for these changes had been 
requested in the FY 2013 Total Force Proposal (TFP), however, the FY 
2013 Appropriations Act did not fund the FY 2013 National Defense 
Authorization Act's (NDAA) Air National Guard (ANG) equipment 
authorization. Due to timing issues with FY 2013 Appropriations Act not 
being passed and signed into law until shortly before delivery of the 
FY 2014 President's Budget (PB), the PB could not be changed prior to 
submission. The Air Force included two unfunded ANG requirements in the 
FY 2014 Unfunded Priority List (UPL) submitted to Congress. These 
include mission equipment for three of five ANG MQ-9 Remote Split 
Operations (RSO) Squadrons ($28.8M) and mission equipment for three ANG 
Targeting Units ($6.9M), for a total unfunded requirement of $35.7M. 
The mission equipment for the remaining two ANG MQ-9 RSO Squadrons 
($19.8M) will be submitted for consideration in future budget requests. 
If the FY 2014 and FY 2015 authorization and appropriation legislation 
fully fund this required mission equipment there will be no impact to 
readiness or Airmen. However, if the FY 2014 and FY 2015 legislation do 
not include these unfunded requirements, MQ-9 RSO Squadrons in Iowa, 
Pennsylvania, Michigan, New York and Arkansas will face a delay of one 
year or greater in achieving initial operating capability (IOC), and 
Targeting Units in North Dakota, Iowa, and Arkansas will face a delay 
of two years or greater in achieving IOC.
    Offensive Space Control (OSC) mission conversions in California 
(216 OSS) and Florida (114 ROPS) are currently not programmed in FY 
2014 and would require Counter-Communication System (CCS) mission 
equipment to achieve IOC. However, due to significantly higher than 
anticipated procurement costs, the type of conversion and desired 
timelines are under review. Initial Implementation Plans capturing FY 
2013 NDAA conversion details show both units achieving IOC in FY 
2016Q1. These initial IOC dates are likely to be delayed. After further 
internal coordination, IOC timelines will be revised, however, any 
delays will be mitigated by the units maintaining their legacy missions 
until conversion details are finalized.
    Regarding facility funding for FY 2013 NDAA force structure 
changes, the HAC-MILCON Subcommittee FY 2014 Mark removed funding for 
an ANG Network Warfare and Cyber ISR project in Martin State, MD. 
Operational requirements dictate NSA-accredited Sensitive Compartmented 
Information Facility (SCIF) and NSANet workstations. Absent MILCON 
funding to accommodate the SCIF and workstations, Martin State will not 
achieve IOC. Additional MILCON projects to address remaining ANG 
mission changes due to the FY 2013 NDAA force structure changes await 
further requirements definition through Site Activation Task Force 
(SATAF) visits. These include the MQ-9 RSO and Targeting units 
mentioned above, a C-130 conversion in Connecticut, and bed-down of 
component Numbered Air Force units which may require MILCON to achieve 
final operating capability (FOC). Based on the results of these SATAFs, 
unit stand-up costs will be integrated into the Air Force programming 
and budgeting process.
    Regarding the Air Force Reserve, we appreciate your continued 
support as the National Commission and Total Force leadership 
accomplish the difficult work to appropriately balance the Active 
Component and Reserve Component strategic and tactical airlift assets. 
Yes, there are costs associated with mission transfers that are not 
budgeted in the Air Force Reserve's budget submission. Our shortfall in 
tactical airlift mission capabilities includes 10 C-130Hs, 109 Air 
Reserve Technicians (ARTs), 370 traditional drilling reservists, $32.1M 
in Operations and Maintenance (O&M) funding, and $8.1 in Reserve 
Personnel Appropriation (RPA) funding in FY 2014. Concerning the Air 
Force Reserve's strategic capabilities, the FY 2013 NDAA requires the 
Reserve to maintain C-5A aircraft in flyable condition at Lackland Air 
Force Base until the study requirements defined in the FY 2013 NDAA are 
complied with. This requirement has the potential to drive millions of 
dollars in annual O&M and RPA costs. Any marks to our FY 2014 end-
strength will also impact additional manpower needed for growing and 
emerging mission sets such as Cyber, Intelligence Surveillance and 
Reconnaissance, and Space.

    Mr. Loebsack. Given that many of the force structure changes--
especially those in the Air National Guard and Reserve--that are slated 
for FY 2013 will take multiple years to carry out, does the FY 2014 
budget request fully support the mission changes and transfer of Air 
National Guard and Air Force Reserve missions, including all budgetary 
costs, that will begin in FY 2013? Are there costs associated with the 
transfer of missions that are not budgeted for in the FY 2014 budget 
submission? If so, what are those costs, what will the impact of them 
be, and will it affect Air Force and unit readiness as well as 
individual airmen?
    General Clarke. No, the FY 2014 budget does not fully support 
mission changes and transfer of Air National Guard (ANG) missions. Two 
combined unfunded requirements were included in the FY 2014 Unfunded 
Priority List (UPL) submitted to Congress. These include mission 
equipment for three of five ANG MQ-9 Remote Split Operations (RSO) 
Squadrons ($28.8M), and mission equipment for three ANG Targeting Units 
($6.9M) for a total unfunded requirement of $35.7M. The mission 
equipment for the remaining two ANG MQ-9 RSO Squadrons ($19.8M) will be 
submitted for consideration in future budgets. If required mission 
equipment is fully funded in FY 2014 and FY 2015 authorization and 
appropriation legislation, there will be no impact to readiness or 
Airmen. However, if the unfunded requirements are not included in FY 
2014 and FY 2015 legislation, MQ-9 RSO Squadrons in Iowa, Pennsylvania, 
Michigan, New York and Arkansas will face a one year or greater delay 
in achieving initial operating capability (IOC), and Targeting Units in 
North Dakota, Iowa, and Arkansas will face a two year or greater delay 
in achieving IOC.
    Offensive Space Control (OSC) mission conversions in California 
(216 OSS) and Florida (114 ROPS) are currently unfunded in FY14 and 
require Counter-Communication System (CCS) mission equipment to achieve 
IOC. Initial Implementation Plans capturing FY13 NDAA conversion 
details show both units achieving IOC in FY16Q1. These initial IOC 
dates assumed funding to procure required equipment, which is not the 
case. With current projected funding, the earliest IOC for the 
California OSC mission is FY17Q3, and Florida is FY18Q3. The cost of 
the CCS equipment per unit is $44M (2 CCS per unit). Regarding unit 
readiness, this will result in a 3\1/2\-year conversion for California 
(1\1/2\ years later than planned) and a 4\1/2\-year conversion timeline 
for Florida (2\1/2\ years later than planned). This will likely impact 
unit retention and individual Airmen, although to what degree is 
unknown.
    Regarding facility funding for FY13 NDAA force structure changes, 
the HAC-MILCON Subcommittee FY14 Mark removed funding for an ANG 
Network Warfare and Cyber ISR project in Martin State, MD. Operational 
requirements dictate NSA-accredited Sensitive Compartmented Information 
Facility (SCIF) and NSANet workstations. Absent MILCON funding to 
accommodate the SCIF and workstations, Martin State will not achieve 
IOC. Additional MILCON projects to address remaining ANG mission 
changes due to the FY13 NDAA force structure changes await future Air 
Force budget deliberation. These include the MQ-9 RSO and Targeting 
units mentioned above, a C-130 conversion in Connecticut, and bed-down 
of component Numbered Air Force units which may require MILCON to 
achieve final operating capability (FOC). Further requirements 
definition for these potential MILCON projects is ongoing as units host 
Site Activation Task Force visits this summer.
                                 ______
                                 
                 QUESTION SUBMITTED BY MS. SHEA-PORTER
    Ms. Shea-Porter. The Air Force is uniquely situated to support 
cyber-related missions. This capability is critical to ensuring 
national security interests. What is the AF doing to recruit and train 
airmen with cyber skills? How are you retaining these airmen after such 
training? How are you ensuring that these airmen will have 
opportunities to advance in their career?
    General Moeller. Air Force cyberspace training programs develop 
Total Force cyberspace professionals from numerous career fields. Core 
training includes Undergraduate Cyberspace Training and Cyberspace 
Defense Operations at Keesler AFB, Mississippi, and Intermediate 
Network Warfare Training at Hurlburt AFB, Florida. We have also 
developed an Intelligence Cyber Analyst course at Goodfellow AFB, 
Texas, to train our digital network analysts. This analyst training is 
complemented with a 6-month follow on Joint Cyber Analysis Course at 
Pensacola Naval Air Station, Florida. Cyber personnel attend further 
Joint cyberspace & related courses based upon positional requirements 
and work roles. In addition, the Air Force Institute of Technology at 
Wright-Patterson AFB, Ohio, conducts graduate-level cyber curricula and 
Professional Continuing Education as well. Growth and change is 
constant in the cyberspace domain, and these schools adjust as 
technology and tactics evolve.
    At this time, retention for Airmen in most cyberspace career fields 
is healthy. Where we have challenges (e.g., Digital Network Analysts), 
we have increased the use of Assignment Availability Codes to ensure 
mission continuity and tour stability. We have also established Active 
Duty Service Commitments to ensure a return on training investments. 
Furthermore, the Selective Reenlistment Bonus (SRB) program is one of 
the AF's most flexible and responsive force management tools. It 
provides monetary incentive to retain existing members in critical 
skills that have low retention and/or low manning, as well as entices 
Airmen from less critical skills to retrain into critical career fields 
receiving SRBs. Cyberspace Airmen have multiple opportunities to 
advance in their careers. They are deliberately force managed to 
acquire breadth in their career fields and depth in the cyberspace 
field. For example, certain specialties will serve consecutive 
operations tours in cyberspace positions at different locations to 
build depth as they progress through their career. This experience is 
coupled with continuing professional cyberspace education to build 
cyberspace experts.

    Ms. Shea-Porter. The Air Force is uniquely situated to support 
cyber-related missions. This capability is critical to ensuring 
national security interests. What is the AF doing to recruit and train 
airmen with cyber skills? How are you retaining these airmen after such 
training? How are you ensuring that these airmen will have 
opportunities to advance in their career?
    General Clarke. While the ANG cannot speak to the overall AF 
efforts, we can outline ANG efforts in recruiting Cyber skillsets. The 
Marketing and Advertising sections within Air National Guard Recruiting 
and Retention have made robust improvements to target highly 
specialized career fields, including Cyber-skill specialties for 2013. 
The ANG does have an incentive program to attract and retain high 
quality Airmen to include those with cyber skills. We will continue to 
attract non-prior service members and prior service members to value-
added missions the ANG conducts. One of the great attributes found in 
the cyber mission area, for the ANG, is the common affiliation 
personnel have in their civilian careers with their military careers. 
The opportunity to serve in uniform performing similar skill sets that 
are performed in their civilian career is a recruiting and retention 
virtue in and of itself.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
